No. 20-6407
IN THE SUPREME COURT OF THE UNITED STATES
JONATHAN WALLACE GOMEZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
PROOF OF SERVICE
On this date, April 6, 2021, I served the attached Reply to Brief in Opposition
on this Court and each party to the proceeding. I served the Supreme Court of the
United States via Federal Express, standard overnight. I served the Solicitor
General and Mr. Gomez via the United States Postal Service, first-class mail. Per
request, I served Assistant United States Attorney Leigha Simonton by email.
The names and addresses of those served are as follows:
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Leigha Simonton
Assistant United States Attorney
1100 Commerce Street, 3rd Floor
Dallas, TX 75242
leigha.simonton@usdoj.gov

Solicitor General
Room 5614, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530

Respectfully submitted April 6, 2021.
/s/ Taylor Wills Edwards “T.W.” Brown
Taylor Wills Edwards “T.W.” Brown
Assistant Federal Public Defender
Northern District of Texas
P.O. Box 17743
819 Taylor Street, Room 9A10
Fort Worth, TX 76102
(817) 978-2753
Taylor_W_Brown@fd.org
Texas Bar No. 24087225

